                                                          NATIONAL SCIENCE FOUNDATION
                                                           OFFICE OF INSPECTOR GENERAL
                                                             OFFICE OF INVESTIGATIONS

                                                   CLOSEOUT MEMORANDUM

 Case Number: A03060033                                                                                       Page 1 of 1



                  We were informed1of an allegation that a pending proposal2 contained a false claim
          about the submission of a manuscript to a scientific journal. The claim appeared in the Results
         from Prior NSF Support section of the proposal. This section described the results of two
          previous NSF award^.^ The PIS on these two awards were the first and second PIS on the pending
          proposal. We therefore considered the first and second PIS on the pending proposal as subjects 1
          and 2 of this case. The third PI was not considered a subject.

                 Through internet and library searches we were able to confirm all the publication claims
         in the pending proposal's curriculum vitae for subjects 1 and 2. In the pending proposal, the two
         subjects claimed a total of five manuscripts in review or pending publication as the results of
         their prior NSF awards. In response to our inquiry, subject 1 provided ample documentation to
         demonstrate that four of the five manuscripts existed. The fifth manuscript, the one that
         precipitated the allegation, proved problematic. Subject 1 explained that subject 1 was the
         responsible scientist for the experiments described in the manuscript but was not the submitted
         author. Subject 1 listed the manuscript as submitted because subject 1 had seen the manuscript.
         A co-author (also not the submitting author) had informed subject 1 that the manuscript had been
         submitted. In response to our inquiry, subject 1 asked the co-author about the status of the
         manuscript. At this point, neither subject 1 nor the colleague have been able to confirm the
         status of the manuscript with the submitting author. Subject 2 confirmed and concurred with
         subject 1's information.

                 Subject 1 has provided sufficient information for OIG to determine that neither subject
         knowingly made a false statement in the pending proposal, and we therefore have concluded that
         the allegation is unsubstantiated.

                   Accordingly, this case is closed.




          ' redacted
           The proposal, [redacted], entitled [redacted], was submitted by Drs. [redacted] (subject l), [redacted] (subject 2)
           and [redacted].
           These awards were [redactedland [redacted].



NSF OIG Form 2 (1 1/02)
